No. 20-1349

In the Supreme Court of the United States
RACHEL THREATT,
Petitioner,
v.
RYAN THOMAS FARRELL, et al., on behalf of himself
and all others similarly situated, et al.,
Respondents.
CERTIFICATE OF WORD COUNT
I, H. Christopher Bartolomucci, a member of the Bar of this Court, hereby
certify under Supreme Court Rule 33.1(h) that the Brief for National Retail
Federation and Restaurant Law Center as Amici Curiae in Support of Petitioner
complies with the word limitations in Supreme Court Rule 33.1(g)(x). I further certify
that the brief contains 4,264 words, excluding the parts of the brief that are exempted
by Supreme Court Rule 33.1(d).

/s/ H. Christopher Bartolomucci
H. CHRISTOPHER BARTOLOMUCCI
Counsel of Record
SCHAERR | JAFFE LLP
1717 K Street NW, Suite 900
Washington, DC 20006
(202) 787-1060
cbartolomucci@schaerr-jaffe.com
Counsel for Amici Curiae

